DOE/IG-0499




        AUDIT                    DEPARTMENT OF ENERGY'S
       REPORT                     SUPER ENERGY SAVINGS
                                 PERFORMANCE CONTRACTS




                                           APRIL 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                                               April 2, 2001


MEMORANDUM FOR THE SECRETARY

FROM:         Gregory H. Friedman (Signed)
              Inspector General

SUBJECT:      INFORMATION: Audit Report on "Department of Energy's Super Energy Savings
              Performance Contracts"

BACKGROUND

As you recently noted in both testimony before the Congress and in public statements, the United States is
facing the most serious energy supply situation since the 1970s. And, current forecasts suggest that the
demand for energy is increasing. As one of the largest energy consumers in the United States, the Federal
Government has established several programs to reduce demand, specifically, by moderating energy
consumption in Federal buildings. Private financing of energy improvements through what are referred to
as Super Energy Savings Performance Contracts (super ESPCs) is one such mechanism. Under super
ESPCs, energy service contractors use private financing to make energy-savings improvements in Federal
facilities. As compensation for their investment, they receive a share of the cost savings. Thus, super
ESPCs represent a way to achieve Federal sector energy savings at no capital cost to the Government.

The Department of Energy's Federal Energy Management Program (FEMP) promotes the use of super
ESPCs, among several programs. FEMP assists other Federal agencies by assessing potential energy
savings, providing training, monitoring progress and providing technical advice on energy-savings projects,
and measuring and verifying energy savings. Under current statute, the Department should recover the cost
of providing assistance to other Federal agencies and use the recovered funds to provide additional support
for privately financed energy-savings programs such as super ESPCs. The appropriate use of the recovered
funds allows the Department to finance the expansion of the program with all of the attendant energy-
savings benefits.

The object of our audit was to determine whether the Department has used its cost-recovery authority to
advance super ESPCs.

RESULTS OF AUDIT


The Department has not maximized the use of its cost-recovery authority to enhance the super ESPCs
program. In fact, we noted that the Department did not:
       •fully recover the cost of providing services to other Federal agencies; and,
       •use recovered funds to achieve greater energy efficiency.
                                                    -2-

This occurred because the Department did not develop an appropriate pricing strategy for recovering costs
and did not formulate a plan for spending the funds it recovered. As a result, the Department as well as
other Federal agencies may not meet their long-term energy-savings goals because they will miss
opportunities to use private financing mechanisms such as super ESPCs to fund energy-savings projects.
To address these conditions, we recommended actions to ensure that the Department's costs for providing
services to other agencies are fully recovered and that the costs are used to enhance the super ESPCs
program.

MANAGEMENT REACTION


Management generally concurred with the finding and recommendations and identified a number of
corrective actions which will, if successfully implemented, assist the Department in furthering energy-
savings initiatives.

Attachment

cc: Director, Federal Energy Management Program
DEPARTMENT OF ENERGY'S SUPER ENERGY SAVINGS
PERFORMANCE CONTRACTS

TABLE OF
CONTENTS



               Overview

               Introduction and Objective ..........................................................1

               Conclusions and Observations.................................................. 2


               Resources for Promoting Energy Savings

               Details of Finding.......................................................................3

               Recommendations and Comments ...........................................5


               Appendix

               Scope and Methodology.............................................................7
OVERVIEW

INTRODUCTION AND   The Energy Policy Act of 1992 and Executive Order 13123, Greening
OBJECTIVE          the Government Through Efficient Energy Management (June 1999),
                   require each Federal agency to reduce energy consumption in Federal
                   buildings. This requirement takes on added importance considering the
                   energy crisis recently described by the Secretary of Energy as the most
                   serious energy shortage since the 1970s, which, without a solution, will
                   threaten prosperity and national security and change the way Americans
                   live. The Secretary advised that the demand for energy" is rising across
                   the board" particularly for natural gas and electricity.

                   The Department of Energy's (Department) Federal Energy Management
                   Program (FEMP) is tasked with working with Federal agencies to
                   ensure that energy-reduction goals are met. To assist other Federal
                   agencies, FEMP developed Super Energy Savings Performance
                   Contracts (super ESPCs), which offer a means of achieving energy
                   reductions at no capital cost to the Government. Under super ESPCs,
                   energy service contractors use private financing to make energy-savings
                   improvements in Federal facilities and, in exchange, receive a share of
                   the cost savings. As of September 30, 2000, FEMP had initiated
                   85 projects on which Department employees and contractor-operated
                   laboratories will assist Federal agencies to obtain energy savings
                   through super ESPCs.

                   In Fiscal Year (FY) 2000, FEMP spent approximately $7.3 million to
                   promote and implement super ESPCs. FEMP promotes the use of super
                   ESPCs by assisting Federal agencies in areas such as assessing energy-
                   savings projects at their sites, providing training on energy-savings
                   programs, selecting approved contractors, monitoring the progress of
                   each project, providing technical advice, and measuring and verifying
                   the resultant energy savings after project completion.

                   To further develop and promote privately financed energy-savings
                   programs such as super ESPCs, Congress provided the Department with
                   an additional source of funding. Specifically, the Appropriations Act of
                   1998 permits the Department to recover the cost of providing guidance
                   and technical assistance to other Federal agencies and to use the
                   recovered funds to provide additional support for privately financed
                   energy-savings programs.

                   The Department expects privately financed investments in super ESPCs
                   to reach $1.2 billion by 2010. As of September 30, 2000, investments
                   were about $171 million. Thus, the Department has a considerable way



Page 1                                                        Introduction and Objective
                  to go to meet its goal. To help ensure the success of Government energy
                  reductions, the Department needs to use all available resources, such as
                  its cost-recovery authority, to promote privately financed
                  energy-savings opportunities.

                  The objective of our audit was to determine whether the Department has
                  used its cost-recovery authority to advance super ESPCs.

CONCLUSIONS AND   The Department has not used its cost-recovery authority to advance
OBSERVATIONS      super ESPCs. Specifically, the Department did not fully recover the cost
                  of providing services to other Federal agencies and did not use recovered
                  funds to achieve greater energy efficiency. This occurred because the
                  Department did not develop an appropriate pricing strategy for
                  recovering cost and did not formulate a plan for spending the funds it
                  recovered. As a result, Federal agencies may not be able to meet their
                  long-term energy-savings goals because they will have less opportunity
                  to use private financing mechanisms such as super ESPCs to fund
                  energy-savings projects. Furthering these types of energy-savings
                  programs will assist Federal agencies in reducing their future energy
                  demands.

                  Management should consider the issues discussed in this audit report
                  when preparing its yearend assurance memorandum on internal controls.



                                                                (Signed)
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
RESOURCES FOR PROMOTING ENERGY SAVINGS


Department Has Not      The Department has not used its cost-recovery authority to advance
Used Cost-Recovery      super ESPCs. Specifically, the Department did not recover the full cost
Authority               of providing assistance to other Federal agencies and did not use the
                        funds it recovered from other Federal agencies to achieve greater
                        energy efficiency.

                        The Department did not recover its full cost. Even though most
                        projects are in the early phases of work, cost overruns, which cannot be
                        recovered from other Federal agencies, have already occurred. To
                        recover its costs, the Department had entered into fixed-price
                        interagency agreements for its 85 energy-savings projects that will use
                        super ESPCs. For these projects, the Department tracked only the cost
                        of technical support provided by its contractor-operated laboratories.
                        Generally, projects are divided into four phases with phase I for
                        assessing work to be done, providing training, and selecting a
                        contractor; phase II for issuing delivery orders under super ESPCs;
                        phase III for installing energy-savings equipment; and, phase IV for
                        measuring and verifying resultant energy savings for one year. As of
                        September 30, 2000, for 18 of the 85 projects, the cost of technical
                        support provided by laboratories was overrun by $142,000, or 47
                        percent. For these 18 projects, overruns will likely increase
                        significantly because 7 projects were still in phase I, 9 were in phase II,
                        and only 2 had progressed as far as phase III.

                        For the other 67 projects, we could not determine whether costs will be
                        overrun because the projects were still in the early phases of work.
                        Likewise, the full cost of all projects is unknown, as the Department
                        does not track the cost of technical assistance provided by Department
                        employees. However, based on discussions with FEMP representatives
                        and reviews of project status reports, the trend of overruns will likely
                        continue.

                        In addition, the Department had not spent any of the funds recovered
                        from other Federal agencies. As of September 30, 2000, Federal
                        agencies reimbursed the Department about $2 million. Although FEMP
                        representatives indicated that additional resources for energy-savings
                        investments are needed to increase training, monitoring, and other
                        contract support efforts, the Department did not use the recovered costs
                        for energy-savings investments.

Authority Was Granted   The Appropriations Act of 1998 allows the Department to recover the
by the Appropriations   cost of energy-savings assistance provided to other Federal agencies.
Act of 1998             Under the Act, the Department can retain the reimbursements received,
                        but can only use these reimbursements to assist Federal agencies in

Page 3                                                                         Details of Finding
                              achieving greater energy efficiency, water conservation, and use of
                              renewable energy by means of privately financed mechanisms such
                              as super ESPCs. The Act does not direct the Department in specific
                              expenditures, but rather provides for the Department's use of these
                              reimbursements for efforts such as advising, training, and providing
                              contractor support.

Department Did Not            The Department did not recover its full cost of providing assistance
Develop Pricing Strategy or   to other Federal agencies because it did not develop a pricing
Spending Plan                 strategy based on actual cost experience or detailed work estimates.
                              Instead, the Department generally relied on a 3-tier fixed-price
                              strategy for interagency agreements. The Department priced
                              agreements at $10,000, $30,000, or $50,000 depending on the level
                              of technical support estimated to be provided. The $10,000 price
                              was for projects on which the Department would provide minimal
                              assistance, and the $30,000 and $50,000 prices were for projects
                              requiring greater levels of technical support. When initiating
                              projects, the Department did not prepare detailed cost estimates and,
                              in most cases, strictly followed its 3-tier fixed-price strategy
                              regardless of the uniqueness of the project or the specific conditions
                              at the site where the project would be undertaken.

                              Furthermore, the Department did not have a tracking system to
                              permit comparisons of prices to actual cost. FEMP depended on the
                              National Renewable Energy Laboratory (NREL), a Department
                              contractor, to track project costs. However, NREL only tracked the
                              cost of technical support provided by laboratories and did not track
                              the cost of technical assistance provided by Department employees.
                              Moreover, actual effort expended, such as hours, was not tracked for
                              laboratory or Department employees. At the time of our audit, the
                              Department was considering a new pricing strategy based on hourly
                              rates. The Department would have to track actual hours on each
                              project in order to use hourly rates.

                              In addition, the Department did not spend any of the $2 million
                              reimbursed by other Federal agencies because FEMP had not
                              developed a plan on how to use these funds.

Department Is Spending        Because the Department did not recover its full cost or use the funds
More Than Necessary, and      that it recovered, it spent more funds than necessary to support super
Federal Agencies May Not      ESPCs. The Department is consuming resources for cost overruns
Meet Their Goals              on super ESPCs that would otherwise be available for other ESPC
                              projects or other Department programs. For example, cost overruns


Page 4                                                                           Details of Finding
                      will limit the amount of resources available to advise and train other
                      Federal agencies about the advantages of super ESPCs. As a result,
                      Federal agencies may not be able to meet their long-term
                      energy-savings goals because they will have less opportunity to use
                      private financing mechanisms such as super ESPCs to fund
                      energy-savings projects. Super ESPCs enable agencies to fund
                      projects without using appropriated funds.

                      Additionally, Executive Order 13123 requires that, by 2010, each
                      Federal agency improve energy efficiency by 35 percent compared to
                      1985 levels, reduce greenhouse gas emissions by 30 percent
                      compared to 1990 levels, and improve energy efficiency in Federal
                      industrial and laboratory facilities by 25 percent compared to 1990
                      levels. Furthering energy-savings programs, such as ESPC projects,
                      will assist Federal agencies in reducing their future energy demands.

RECOMMENDATIONS       We recommend that the Director, FEMP:

                         1. Implement a cost-recovery strategy that includes estimating,
                            tracking, billing and collecting all costs for each project; and,

                         2. Develop and implement a plan to use recovered funds to
                            aggressively promote super ESPCs.

MANAGEMENT REACTION   Management generally concurred with the findings and
                      recommendations. In responding to the report, management stated
                      that although the report is accurate in its description of the
                      Department's use of recovered funds authority during the audit, the
                      Department has recently made substantial progress in implementing
                      the report's recommendations both during and after the closing of the
                      report. For example, management advised that during the audit,
                      FEMP and the Office of Chief Financial Officer (CFO) worked
                      closely to develop guidance on a cost recovery strategy to recover
                      costs on a program basis. That guidance was issued on
                      January 16, 2001.

                      Further, management stated that they are currently implementing a
                      plan to use the recovered funds. Management explained that FEMP
                      has recently taken steps to ensure that recovered funds will be used
                      to provide technical assistance to agencies and to fund limited term
                      appointment personnel who will assist agencies in achieving greater
                      energy efficiency, water conservation, and renewable energy by
                      implementing ESPCs.


Page 5                                               Recommendations and Comments
                   In response to the issue of cost overruns, management stated that
                   through regular reviews and implementation of CFO guidance, the
                   Department will fix the problem of cost overruns to a reasonable
                   degree, and FEMP expects to recover full costs over the life of the
                   program. Management explained that FEMP, together with the
                   Golden Field Office, plans to monitor costs to ensure actual costs are
                   recovered. The cost of Federal FTEs will be accounted for via a
                   3-percent federal administrative charge, which will be separately
                   identified and accounted for.

                   Management stated that the ability of Federal agencies to meet their
                   energy reduction goals is not dependent solely upon DOE expending
                   its recovered funds to assist agencies in implementing alternative
                   financed energy projects. Management stated that agencies can also
                   use their own appropriated funds to implement energy savings
                   projects and super ESPCs represent one of several tools available to
                   help agencies achieve their goals.

                   Management also advised that during the later part of FY 2001,
                   FEMP plans to revisit the entire pricing policy for charging agencies
                   for technical assistance due to the concerns several large agencies
                   have expressed. Management explained that agency resistance to
                   reimbursing the Department may have a substantial impact on the
                   quantity of ESPCs being implemented, which in turn would merit a
                   review of the benefits of continuing a pricing policy. Management
                   indicated that it intends to conduct a comprehensive evaluation of the
                   ESPC program in conjunction with the review of the FY 2003
                   budget.

                   Management's comments and proposed actions are responsive to our
AUDITOR COMMENTS   recommendations.




Page 6                                            Recommendations and Comments
Appendix

SCOPE         The audit was performed from May 2000 to January 2001 at
              Headquarters, the Golden Field Office, and NREL. The audit covered
              super ESPCs and reimbursements from October 1997 through
              September 2000.

METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed laws and regulations relating to super ESPCs, cost
                     recovery, and energy-savings goals;

                 •   Interviewed representatives of FEMP, Golden Field Office, and
                     NREL regarding private financing mechanisms, super ESPCs,
                     and cost recovery;

                 •   Interviewed representatives of other Federal agencies who had
                     issued delivery orders under super ESPCs or received technical
                     assistance;

                 •   Reviewed cost tracking records maintained by NREL,
                     interagency agreements, super ESPCs, delivery orders, and
                     monthly status reports; and,

                 •   Assessed performance measures relating to super ESPCs and
                     cost recovery.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits. It included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our audit
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. In
              performing this audit, we did not rely significantly on
              computer-generated data. Also, FEMP established performance
              measures under the Government Performance Results Act of 1993. For
              FY 2001, FEMP's performance measures established goals for
              advancing the use of super ESPCs.

              We discussed the audit finding and recommendations with
              representatives from FEMP and CFO on February 26, 2001.




Page 7                                                      Scope and Methodology
                                                                               IG Report No. :DOE/IG-0499

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
